                                                        NAnONAL SCIENCE FOUNDA nON
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESnGAnONS

                                                CLOSEOUT MEMORANDUM
                                                                                    \



  Case Number: AIOll0085                                                                        Page 1 of 1



                                                             Closeout

                   We received an allegation of plagiarism, stating that the subject l had copied material into
           his (subject's) NSF proposal2 from an earlier NSF proposae on which the subject was a Co-PI.
           We determined that there was insufficient substance to warrant further investigation.

                    Accordingly, this case.is closed.




NSF OIG Form 2 (1lI02)
